                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

 Case Number: I05100056                                                                       Page 1 of 1



          As part of a proactive review of partnership grants, OIG selected several grants to review. To
          that end, a partnership grant' between a universitJ and several school districts3 throughout the
          Boston was selected for review. During a cursory review of the grant file, OIG noted an email
          sent from the Principal Investigator4 (PI) that discussed the need for a full-time financial"
          manager. The email indicated that there could be a problem with financial accounting within the
          partnership that could impact the accuracy of the financial reports submitted to NSF on an annual
          basis. An investigation was initiated to determine if the problem with the partnership affected the
                                                                                                   /I
          financial reporting of grant expenditures.

          A full review of the program revealed that the PI discussed the possible problem with the
          program director5 and sought advice on how to best handle the financial accounting aspkct of
          grant administration. The PI did in fact work out the financial component for the administration
          of the grant. OIG also discussed the progress of the grant with the program manager. The
          program manager stated that the PI is doing a wonderful job with the grant.

          OIG is satisfied that the financial component of this partnership grant is proceeding properly and
          that the PI is successfully managing the grant. Accordingly, this case is closed.                     1




          1
            footnote redacted
          2
            footnote redacted
          3
            footnote redacted
            footnote redacted
          5
            footnote redacted



                                                                                                                    L
VSF OIG Form 2 ( 1 1/02)
